WR-B-00-05




        AUDIT
       REPORT

                             PERFORMANCE INCENTIVES AT
                                 THE IDAHO NATIONAL
                                  ENGINEERING AND
                             ENVIRONMENTAL LABORATORY




                                           APRIL 2000




    U.S. DEPARTMENT OF ENERGY
   OFFICE OF INSPECTOR GENERAL
     OFFICE OF AUDIT SERVICES
                                               April 3, 2000


MEMORANDUM FOR THE MANAGER, IDAHO OPERATIONS OFFICE

FROM:          Lawrence R. Ackerly, Western Regional Manager (Signed)
               Office of Inspector General

SUBJECT:       INFORMATION: Audit Report on "Performance Incentives at the Idaho
               National Engineering and Environmental Laboratory"

BACKGROUND

In 1994, the Department of Energy (DOE) decided to replace its standard management and operating
contract with a new performance-based contract. Such contracts were to include incentives to improve
performance and/or reduce costs. The contract awarded by the Idaho Operations Office (Idaho) to
Lockheed Martin Idaho Technologies Company (Lockheed) in 1995 for the operation of the Idaho National
Engineering and Environmental Laboratory (INEEL) was the first to incorporate performance-based
incentives. The objective of our audit was to determine whether performance-based incentives at the
INEEL had improved performance and reduced costs.

RESULTS OF AUDIT

Performance-based incentives at the INEEL had not been fully successful in improving performance and
reducing costs. We reviewed 13 incentives that focused on performance and/or cost and questioned 8, some
for more than one reason. For some incentives, performance declined or was unchanged. For others,
performance improved but the improvement was overstated, was compensated twice, could not be directly
linked to actions taken by Lockheed during the incentive period, or carried a disproportionately high fee.
For still others, Lockheed could not demonstrate any reduction in costs.

Incentives were not fully successful partly due to problems with the way Idaho structured some incentives.
For example, Idaho structured one incentive to reward process rather than outcome. There were also
problems with the way Idaho validated contractor performance. These problems resulted in the auditors
questioning about $11.3 million in incentive fees paid to Lockheed.

We recommended specific improvements to the way Idaho structured its incentives. We also recommended
that Idaho improve its processes for validating contractor performance and take prompt action to correct
deficiencies identified through validation efforts or independent reviews.

MANAGEMENT REACTION

Management generally concurred with the finding and recommendations. Management stated that its
pioneering effort to shift to performance-based contracting had resulted in overall benefits to the taxpayer.
Management also stated that the Office of Inspector General's review resulted in suggested improvements
that Idaho incorporated into its current contract, which became effective on October 1, 1999. Four of the
incentives reviewed were discontinued. Three others were modified. Additionally, management committed
to review $2.2 million of fee paid for three incentives to determine if some of this fee may have been paid
in error. If errors are discovered, Idaho stated that it would attempt to recoup the fee from Lockheed.
PERFORMANCE INCENTIVES AT THE IDAHO NATIONAL
ENGINEERING AND ENVIRONMENTAL LABORATORY

TABLE OF
CONTENTS


               Overview

               Introduction and Objective .............................................. 1


               Conclusions and Observations ....................................... 1


               Incentives Not Fully Successful

               Details of Finding ............................................................ 3


               Recommendations and Comments ................................. 6


               Appendices

               Scope and Methodology ................................................. 9

               Summary of Questioned Fee ........................................ 10


               Related Office of Inspector General and
               General Accounting Office Reviews .............................. 11
Overview
INTRODUCTION      At the beginning of Fiscal Year (FY) 1995, the Department of Energy's
AND OBJECTIVE     (DOE) Idaho Operations Office (Idaho) awarded Lockheed Martin
                  Idaho Technologies Company (Lockheed) a five-year management and
                  operating (M&O) contract for the Idaho National Engineering and
                  Environmental Laboratory (INEEL). The Lockheed contract was the
                  first contract in the DOE complex to incorporate performance-based
                  incentives. During the course of the contract, Idaho incentivized
                  several areas, including the Advanced Test Reactor (ATR), the Specific
                  Manufacturing Capability (SMC), safety and health, and liquid waste
                  minimization.

                  The Lockheed contract expired September 30, 1999, at which time a
                  new contractor, Bechtel BWXT Idaho, LLC assumed the role of M&O
                  contractor for the INEEL. Idaho carried over seven of the incentives
                  from the Lockheed contract. Idaho intends to negotiate more incentives
                  until about one-half of the estimated $36 million available annual fee is
                  in the form of incentive fees.

                  The General Accounting Office (GAO) recently reported that DOE had
                  not evaluated the impact of performance-based contracting on its
                  laboratory contractors and, as a result, did not know if this new form of
                  contracting was achieving the intended objectives of reducing costs and
                  improving performance. This report, in fact, confirmed findings in
                  several reports published by the Office of Inspector General (OIG).
                  The OIG, for example, determined that contractors were paid fees for
                  work accomplished before incentives were established, for work that
                  was easily accomplished, and for performance that was process-
                  oriented rather than results-oriented. (For a list of reports, see
                  Appendix 3.)

                  The objective of this audit was to determine whether performance-
                  based incentives at the INEEL had improved performance and reduced
                  costs.

CONCLUSIONS AND   Performance-based incentives at the INEEL had not been fully
OBSERVATIONS      successful in improving performance and/or reducing costs. We
                  questioned 8 of the 13 incentives employed at the INEEL for one or
                  more of the following reasons:

                  •   performance declined or was unchanged;
                  •   performance improved, but the improvement was overstated, was
                      compensated twice, could not be directly linked to actions taken by
                      Lockheed during the incentive period, or carried a
                      disproportionately high fee; and,
                  •   cost reduction did not occur.

Page 1                                               Introduction And Objective/
                                                     Conclusions And Observations
         Incentives were not fully successful primarily because of problems with
         the way Idaho structured incentives--such as structuring an incentive to
         reward process rather than outcome--and with the way Idaho validated
         contractor performance. These problems resulted in the auditors
         questioning about $11.3 million of incentive fees paid to Lockheed.

         Further, largely absent from the areas incentivized were the primary
         INEEL business lines—Environmental Management activities—that
         accounted for more than 60 percent of Idaho's budget. A July 1997
         Headquarters review team noted this in its Report on the Combined
         Headquarters/Field Assessment of Incentives Used in Performance-
         Based Management Contracts at the Idaho Operations Office. Idaho
         officials stated that they planned to develop incentives for
         Environmental Management activities with the new contractor
         beginning in 2000.

         In our opinion, the matters discussed in this report represent material
         internal control weaknesses within DOE that should be considered
         when preparing the yearend assurance memorandum on internal
         controls.




                                       ______(Signed)_________
                                       Office of Inspector General




Page 2                                       Conclusions And Observations
INCENTIVES NOT FULLY SUCCESSFUL
Incentives Had Not   We questioned 8 of the 13 incentives reviewed. Some were questioned
Always Improved      because performance did not improve. For instance, safety and health
Performance And/Or   problems increased in most INEEL operating areas even though the
Reduced Costs        Safety and Health Cost Index (SHCI) Incentive and the Voluntary
                     Protection Program (VPP) Incentive were established to enhance safety
                     and health. Based on an index maintained by Lockheed, safety and
                     health problems for the incentivized years of 1995-1998 were 20
                     percent higher than for the three years prior to incentivization. Thus,
                     these incentives did not achieve their intended purpose. In another
                     instance, the SMC Production Incentive was established in part to
                     enhance production activities. Production, however, was not enhanced
                     because the customer sought only a minimal level of production both
                     before and after the incentive was established. Therefore, it was
                     inappropriate to incentivize production activity.

                     In other cases where performance improved, we determined that
                     improvement was overstated, was compensated twice, could not be
                     directly linked to actions taken by Lockheed during the incentive
                     period, or carried a disproportionately high fee. For instance, under the
                     SMC New Business Incentive, Lockheed included work done on other
                     Lockheed projects at the INEEL as new business. We also found that
                     two ATR incentives duplicated one another in terms of intended
                     outcome and thus the contractor was compensated twice for achieving
                     the same result. In another case, evaluation of the contractor's
                     performance under the Liquid Waste Minimization Incentive showed
                     that part of the claimed waste reduction from the baseline occurred due
                     to actions taken prior to the incentive period. For the remaining
                     claimed waste reduction, neither Lockheed nor Idaho could explain it in
                     terms of actions either had taken. When we reviewed the baseline from
                     which waste reduction was measured, we found it to be poorly defined
                     and inadeqate for measuring performance. Finally, the SMC Safety and
                     Health Cost Index Incentive carried a disproportionately high fee when
                     the labor hours covered by it were compared to the labor hours covered
                     by the SHCI Incentive.

                     For the SHCI and VPP incentives, Lockheed could not demonstrate any
                     reduction in the costs of promoting safety and health. Lockheed did not
                     accumulate these costs and therefore they were unknown.




Page 3                                                                  Details Of Finding
Goal Of Incentives Is   The importance of using incentives to enhance performance and reduce
To Improve              costs is discussed in the February 1994 report, Making Contracting
Performance And         Work Better and Cost Less. In the report, DOE's Contract Reform
Reduce Costs            Team recommended that DOE replace its standard M&O contract with
                        a new performance-based contract that would include "appropriate
                        incentives for contractors to meet and exceed the performance criteria
                        effectively and efficiently." In addition, the Federal Acquisition
                        Regulation requires that a cost incentive or cost constraint be included
                        whenever a performance incentive exists. Thus, incentives included in
                        the INEEL contract should have improved performance and/or reduced
                        costs.

 Problems With          Incentives had not always improved performance and reduced costs at
 Incentive Structure    the INEEL primarily because of problems with the way Idaho
 And Performance        structured individual incentives and/or validated performance. Some of
 Validation             these problems follow.

                        Process rewarded rather than outcome. The VPP Incentive rewarded
                        Lockheed for establishing processes, methods, and training programs,
                        rather than the outcome of improved safety and health. Thus, the
                        contractor could meet the incentive and earn a significant amount of
                        fee—most of the $16 million fee available under three safety and health
                        incentives was tied to the VPP Incentive—even if safety and health did
                        not improve or deteriorated. Although this problem was previously
                        identified in a July 1997 Headquarters review, Idaho disagreed with the
                        finding and took no corrective action.

                        Poorly defined baseline. The baseline for the Liquid Waste
                        Minimization Incentive lacked controls. There was no system in place
                        to track and report on modifications to processes and equipment that
                        generated liquid waste, when the modifications were made, and how
                        much of a decrease in liquid waste could be expected. Without such a
                        system, Idaho could not establish a valid baseline for measuring
                        performance.

                        Inadequate validation of performance. Idaho validated Lockheed's
                        performance under the ATR Operating Efficiency Incentive using a
                        baseline other than the one stipulated in the performance measure. In
                        another example, Idaho paid VPP Incentive fee even though Idaho's
                        safety expert on the validation team found Lockheed's performance to
                        be insufficient to warrant a fee payment.




Page 4                                                                     Details Of Finding
                     No cost reduction targets or spending limits. The SHCI and VPP
                     incentives lacked any spending limits or targets for reducing the costs
                     of promoting safety and health. The incentives merely included the
                     phrase "to cost effectively operate."

                     In addition, the performance expectation for the Liquid Waste
                     Minimization Incentive was lowered without DOE Headquarters
                     approval and established late into the performance period. The
                     incentive approved by Headquarters set the performance expectation as
                     a 35 percent or greater reduction in waste from the baseline. Later,
                     without obtaining the required Headquarters approval for a significant
                     change to an incentive, Idaho lowered the performance expectation to a
                     10 percent reduction in waste. Further, the incentive was not signed by
                     Idaho and the contractor until more than 7 months of the performance
                     period had elapsed, which called into question the objectivity of the
                     incentive.

Contract Reform      As demonstrated in this report, improving performance and reducing
Goals Not Achieved   costs can be difficult goals to achieve when incentives are not properly
                     structured and performance is not correctly validated. The performance
                     improvements that management might have achieved with incentives
                     were not always attained. In addition, management incurred the risk
                     that the contractor would spend indiscriminately to improve
                     performance and earn fee where incentives lacked spending limits or
                     cost reduction targets. The auditors questioned about $11.3 million of
                     fee paid to Lockheed (see Appendix 2). If Idaho does not find better
                     ways to structure incentives and validate performance, it may continue
                     to experience problems with performance, pay excessive fees, and risk
                     incurring excessive costs.




Page 5                                                                   Details Of Finding
RECOMMENDATIONS   We recommend that the Manager, Idaho Operations Office:

                  1. maximize the opportunities for improving performance and reducing
                  costs by including in Idaho's performance-based contracts incentives
                  that (a) are outcome- rather than process-oriented, (b) incentivize areas
                  where high levels of performance are desired, (c) have reliable
                  baselines, (d) are not duplicative, and (e) include cost constraints;

                  2. improve Idaho's performance validation processes so that the
                  contractor is paid incentive fee for only actual, verifiable performance;
                  and,

                  3. take prompt action to correct deficiencies identified through
                  validation efforts or independent reviews.

                  Management generally concurred with the finding and
MANAGEMENT
                  recommendations. While acknowledging that the OIG review resulted
REACTION
                  in suggested improvements, management believed that its pioneering
                  effort to shift to performance-based contracting resulted in overall
                  benefits to the Government and the taxpayer.

                  In response to Recommendation 1, management stated that the current
                  contract includes 11 requirements that must be met in order for an area
                  to be considered for performance-based incentives, including the five
                  elements identified in the recommendation. If an area does not include
                  all 11 elements, the area will be evaluated using the award fee process.
                  Certain activities that are very quantifiable and measurable but lack one
                  or more elements of an incentive will be placed in the category of
                  "objective award fee" measures. Other less measurable items will be
                  categorized as "subjective award fee." Idaho envisions that the majority
                  of the contractor's performance will be evaluated using either incentive
                  or objective award fee criteria.

                  Management also stated that a fee scoring methodology has been
                  developed for the new M&O contractor. The methodology defines the
                  performance expectations, the method for assessing results, and the
                  allocation of fee into performance areas. The fee will be allocated in
                  three different manners within each performance area—performance-
                  based incentives, objective award fee, and subjective award fee.




Page 6                                           Recommendations And Comments
         Responding to Recommendation 2, Idaho stated that it is developing
         and implementing a balanced-scorecard performance measurement
         system. This system will focus on five critical and interrelated
         outcomes for the INEEL. Objectives are being developed for each
         critical outcome. Measures will then be identified which will serve as
         the basis for evaluating the contractor's performance. This action will
         be complete by April 1, 2000.

         Regarding Recommendation 3, Idaho stated that the OIG review has
         resulted in suggested improvements that Idaho has incorporated into its
         current contract, which became effective on October 1, 1999. Four
         incentives have been canceled (specifically, the VPP, the SHCI, the
         SMC Safety and Health Cost Index, and the SMC New Business
         incentives).

         Management is convinced, however, that the ATR, the SMC
         Production, and the Liquid Waste Minimization incentives should be
         retained albeit with reduced fee and clearer performance objectives.
         Management cited operational performance improvements, outage
         reductions, and safety level maintenance as reasons for keeping the
         ATR incentivized. It was Idaho's position that the SMC Production
         Incentive should be continued because it is based on a history of
         reliable information, had clear performance measures, meets Congress's
         mandate to maintain the Department of Defense industrial base at the
         lowest possible cost, and emphasizes safety as a high priority. Idaho
         stated that in order for the incentive to be successful, a balance of three
         elements (production, performance, and cost reduction) needs to be
         accomplished. As justification for keeping the Liquid Waste
         Minimization Incentive, Idaho stated that the incentive had motivated
         the contractor to significantly reduce liquid waste, had made it easier to
         achieve goals outlined in court-enforceable documents, and would
         provide long-term benefits to the taxpayer.

         Finally, management believed that the Government received benefits
         for the fee questioned by the OIG. However, management committed
         to review $2.2 million of questioned fee paid for the Liquid Waste
         Minimization Incentive; the SHCI Incentive; and the SMC New
         Business Incentive, to determine if some of this fee may have been paid
         in error. If errors are discovered, Idaho will attempt to recoup the fee
         from the former contractor.




Page 7                                   Recommendations And Comments
AUDITOR    Management's comments are responsive to our recommendations.
COMMENTS   However, the ATR Unplanned Outages Incentive, the SMC Production
           Incentive, and the Liquid Waste Minimization Incentive still have
           problems that need to be addressed.

           The major performance variable that affects both ATR incentives is
           unplanned outages. That is, an unplanned outage decreases the ATR's
           operating efficiency. The ATR Operating Efficiency Incentive and the
           ATR Unplanned Outages Incentive, therefore, duplicate each other with
           respect to outcome. This concern was also voiced by a DOE
           Headquarters team that reviewed the INEEL's incentives in 1997.

           While the SMC Production Incentive has reduced costs it does not
           encourage superior performance in production because there is no need
           to improve production. Specifically, SMC production has been
           operating on a minimum production schedule simply to "maintain
           capability" since 1994. One of the fundamental concepts of contract
           reform is that incentives challenge the contractor to produce superior
           results and, if achieved, reward the contractor. With this incentive, the
           contractor is virtually guaranteed to earn the entire incentive fee
           associated with the production component of the incentive because the
           production schedule is not challenging. In fact, this occurred during
           1996 through 1998 when Lockheed was paid 100 percent of the
           available $4 million fee for the production component of the incentive.

           We agree that there is a need to reduce liquid waste and are encouraged
           that management has committed to look into performance measurement
           weaknesses disclosed by the audit. However, management must
           dramatically improve the internal controls (baseline controls and
           validation procedures) if the Liquid Waste Minimization Incentive is to
           succeed.




Page 8                                    Recommendations And Comments
Appendix 1
SCOPE         The audit was performed from April 27, 1999 to December 22, 1999, at
              Idaho and Lockheed offices in Idaho Falls, Idaho, and at the INEEL.
              We limited the scope to the 13 incentives that were in place at the end
              of FY 1998.

              To accomplish the audit objective, we:

METHODOLOGY      •   reviewed applicable Federal and DOE regulations;
                 •   reviewed prior OIG, GAO, and DOE Headquarters reviews;
                 •   examined performance incentive fees as incorporated by the
                     Lockheed contract;
                 •   reviewed and validated selected performance data;
                 •   assessed compliance with certain provisions of the Government
                     Performance and Results Act of 1993; and,
                 •   interviewed Idaho and Lockheed personnel.

              The audit was performed in accordance with generally accepted
              Government auditing standards for performance audits and included
              tests of internal controls and compliance with laws and regulations to
              the extent necessary to satisfy the audit objective. We tested controls
              with respect to Idaho's implementation of performance incentives in the
              Lockheed contract. Because our review was limited, it would not
              necessarily have disclosed all internal control deficiencies that may
              have existed at the time of our audit. We did not conduct a reliability
              assessment of computer-processed data because only a limited amount
              of such data was used during the audit.

              We held an exit conference with the Acting Chief Financial Officer,
              Idaho Operations Office, on February 28, 2000.




Page 9                                                   Scope And Methodology
Appendix 2
                               SUMMARY OF QUESTIONED FEE

1. All fee paid under the SMC Production Incentive because there was           $4,000,000
   no need to incentivize a low level of production that Lockheed had
   met for several years.

2. All fee paid under the VPP Incentive because safety and health               2,250,000
   problems increased, rather than decreased, and the incentive was
   structured to reward process rather than outcome.

3. All 1998 fee paid under the Liquid Waste Minimization Incentive              2,000,000
   because the waste reduction performance claimed could not be directly
   linked to actions taken by Lockheed.

4. All fee paid under the ATR Unplanned Outages Incentive because               1,480,000
   the incentive duplicated the ATR Operating Efficiency Incentive in
   terms of outcome.

5. Fee paid under the ATR Operating Efficiency Incentive because                  820,000
   performance improvement was overstated (that is, performance was
   measured against the wrong test plan, efficiency was built into the
   measurement formula, and 1995 efficiency was erroneously calculated).

6. Fee paid under the SMC Safety and Health Cost Index Incentive that             600,000
   was disproportionately large compared to the SHCI Incentive.

7. Fee paid under the SHCI Incentive because performance was overstated           108,000
   (that is, the index was not adjusted to compensate for a change in
   Lockheed's work schedule).

8. Fee paid under the SMC New Business Incentive for work done on                   63,000
   other Lockheed projects at the INEEL.

   Total Questioned Fees                                                       $11,321,000




Page 10                                                               Summary Of Questioned Fee
Appendix 3
                      RELATED OFFICE OF INSPECTOR GENERAL AND
                        GENERAL ACCOUNTING OFFICE REVIEWS


This review concerned DOE's contract reform in the area of performance-based incentives. Prior OIG
and GAO reviews related to this area include those listed below.

•   National Laboratories: DOE Needs to Assess the Impact of Using Performance-Based Contracts,
    GAO/RCED-99-141, May 7, 1999

    DOE had not evaluated the impact of performance-based contracting on its laboratory contractors
    and, as a result, did not know if this new form of contracting was achieving the intended objectives
    of reducing costs and improving performance.

•   The Fiscal Year 1996 Performance Based Incentive Program at the Savannah River Operations
    Office, INS-O-98-03, May 1998

    The Savannah River Operations Office had incentives that were not clearly stated and paid
    excessive fees.

•   Audit of the Contractor Incentive Program at the Nevada Operations Office, DOE/IG-0412, October
    1997

    The Nevada Operations Office performance incentives were vague, could not be objectively
    validated, and were implemented after the performance period had been completed.

•   Audit of the Contractor Incentive Program at the Rocky Flats Environmental Technology Site, DOE/
    IG-0411, August 1997

    DOE's performance incentives at the Rocky Flats Environmental Technology Site did not always
    include clearly defined criteria, were not structured to encourage and reward superior performance,
    and were often process-oriented rather than results-oriented.

•   Inspection of Performance Based Incentive Program at the Richland Operations Office, DOE/IG-
    0401, March 1997

    The DOE Richland Operations Office paid excessive incentive fees; paid fees for work that was
    accomplished prior to the establishment of the incentive program; paid fee for work that was easily
    achieved by the contractor; and paid fee in an instance where quality and safety were compromised
    by the contractor in order to achieve an incentive fee.




Page 11                                                    Related Office Of Inspector General And
                                                           General Accounting Office Reviews
                                                                       Report No. WR-B-00-05


                              CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers'
requirements, and, therefore, ask that you consider sharing your thoughts with us. On the back
of this form, you may suggest improvements to enhance the effectiveness of future reports.
Please include answers to the following questions if they are applicable to you:

1. What additional background information about the selection, scheduling, scope, or
   procedures of the audit would have been helpful to the reader in understanding this
   report?

2. What additional information related to findings and recommendations could have been
   included in this report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's overall
   message more clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues
   discussed in this report which would have been helpful?

Please include your name and telephone number so that we may contact you should we have
any questions about your comments.

Name____________________________________Date________________________________

Telephone________________________________Organization__________________________

When you have completed this form, you may fax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

               Office of Inspector General (IG-1)
               U.S. Department of Energy
               Washington, D.C. 20585
               ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact Wilma Slaughter at (202) 586-1924.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                             following address:


                   U.S. Department of Energy Office of Inspector General Home Page
                                        http://www.ig.doe.gov


       Your comments would be appreciated and can be provided on the Customer Response Form
                                      attached to the report.
